Executive Report
Return
to the USDOJ/OIG Home Page
Working Capital FundAnnual Financial StatementFiscal Year 1999
Report No. 00-12April 19, 2000Office of the Inspector General
COMMENTARY AND SUMMARY
The Working Capital Fund (WCF) is a revolving fund authorized to finance, on a break-even basis, administrative services provided by the Justice Management Division (JMD) to the Offices, Boards, Divisions and Bureaus of the Department of Justice (DOJ) and to other Federal agencies.  These services are generally commercial functions, such as data processing, publications, building services, financial operations, personnel services, telecommunications, property management, and space management.  The WCF is also authorized to receive transfers of unobligated balances of appropriations from other DOJ components.  These transfers may be used to fund the acquisition of capital equipment, develop and implement law enforcement or litigation related automated data processing systems, and improve and implement the DOJ's financial management and payroll/personnel systems.  The Congress must be notified of the DOJ's intention to use these funds.
This audit report contains the Annual Financial Statement of the WCF for the fiscal year ended September 30, 1999.  This audit was performed by Brown & Company, Certified Public Accountants, and resulted in an unqualified opinion on the FY 1999 financial statements.  The independent auditor's report on internal control identified one reportable condition concerning a lack of sufficient security controls over the entity's financial management information system (FMIS).  Since the WCF is only an end-user of the FMIS, there are no recommendations for WCF management.  This condition will be addressed in the Offices, Boards and Division FY 1999 Annual Financial Statement report and the recommendation will be directed to the Department's Chief Financial Officer.
WCF management successfully reconciled their Fund Balance with the Treasury Department's account balance during Fiscal Year 1999.  This issue was identified and reported during the FY 1997 and 1998 audits, and was the only open reportable condition from prior years.